HHS/OIG, Audit - "Review of Disaster-Related Medicare Claims Submitted by
The Mobility Depot for Calendar Year 2005," (A-06-07-00079)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Disaster-Related Medicare Claims Submitted by The Mobility Depot for Calendar
Year 2005," (A-06-07-00079)
June 26, 2008
Complete
Text of Report is available in PDF format (281 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We found that the beneficiaries identified on 40 selected
disaster-related Medicare claims submitted by The Mobility Depot were eligible
for replacement durable medical equipment (DME) and provided with allowable DME.
The Mobility Depot, located in Baton Rouge, Louisiana, supplied this DME to
beneficiaries affected by Hurricanes Katrina and Rita.  This report contains no
recommendations.